WAIVER

Supreme Court of the United States

No. 20-1042
Pedro Hernandez v. New York
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
of Please enter my appearance as Counsel of Record for all respondents.

O There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

of Iam a member of the Bar of the Supreme Court of the United States.

Iam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

 

 

Signature
Date: 2) igfoe2t
(Type or print) Name. Vincent Rivellese

 

Mr. Ms. O Mrs. O Miss

Firm, New York Guilty Distnck Actio rrens

Address____2né, Hogan Dia,
City & State_ New York, NY Zip _10013
Phone 210-335-9305 / sie - by) - 7368

 

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Ce: = My. Guyen Ravtwell Knight

Mcdev molt will & Emery

340 Madison Avenue

New York , NY 10173

Obtain status of case on the docket. By phone at 202-479-3084 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
